GENERAL SERVICES ADMINISTRATION
     OFFICE OF INSPECTOR GENERAL


           Review of the PBS
         Environment Program
             Management
       Report Number A050040/P/4/R06003

                March 28, 2006
GSA Office of Inspector General
Report Number A050040/P/4/R06003



  REVIEW OF THE PBS ENVIRONMENT PROGRAM MANAGMENT

                                                              Table of Contents


Report Letter......................................................................................................................................... ii
Executive Summary ............................................................................................................................. iii
Introduction........................................................................................................................................... 1
  Background ..........................................................................................................................................1
  Objectives, Scope and Methodology ...................................................................................................1
Results of Audit ..................................................................................................................................... 3
  Environmental Management System ...................................................................................................3
     EMS Progress Has Been Slow Since 2000 Audit............................................................................ 4
     DFC EMS Pilot Needs Improvement .............................................................................................. 4
  Identification and Management of Environmental Risk......................................................................5
     Environmental Risk Index Needs Improvement .............................................................................. 5
     Environmental Liability Reporting Needs National Office Supervision......................................... 8
     PBS Should Address Tenant Responsibility.................................................................................... 8
  Conclusion ...........................................................................................................................................9
  Recommendations..............................................................................................................................10
  Management Comments ....................................................................................................................11
  Internal Controls ................................................................................................................................11
Appendices........................................................................................................................................... 12
  Management Response to Draft Report.......................................................................................... A-1
  Results of the Environmental Protection Agency (EPA) Environmental Management Review
  (EMR) ..............................................................................................................................................B-1
  Report Distribution ..........................................................................................................................C-1




                                                                           i
REPORT LETTER




                ii
GSA Office of Inspector General
Report Number A050040/P/4/R06003


EXECUTIVE SUMMARY
Purpose

The objective of this review was to determine whether Public Buildings Service (PBS) implemented
effective measures following the prior audit, Audit of PBS’ Environmental Management Program;
specifically, the effectiveness of PBS’ environmental management system (EMS), environmental risk
index (ERI), environmental liability reporting, and safeguards for tenant management of hazardous
materials in PBS-controlled space. This audit was scheduled in the OIG Fiscal Year 2005 Annual
Audit Plan.

Background

The PBS Environment Program helps General Services Administration (GSA) to be a responsible
steward of our nation’s resources, and ensures GSA carries out its social, environment, and other
responsibilities as a federal agency. PBS is responsible for design, construction, repair and alteration,
lease acquisition, operation and maintenance, and real property disposal for nearly 10,000 owned and
leased facilities. Each of these activities has potential environmental and health impacts and one goal
of the PBS Environment Program is to eliminate all damage to the environment resulting from PBS
operations.

Results-in-Brief

For the system to be fully effective, the National Office needs to play a stronger role in ensuring that
program initiatives are carried out, regional efforts are coordinated, and the national EMS is
implemented effectively in the regions. In addition, to strengthen the national EMS, improvements
should be made to the environmental policies and procedures.

To facilitate better identification and management of environmental risk, the scope of ERI completion
needs to be expanded to formally include leased and delegated facilities. In addition, the ERI tool
needs several application controls to increase the reliability of the scores it generates. Also, the
agency’s environmental liability reporting requires additional oversight to ensure the report is
accurate and complete. Finally, PBS should apply a risk-based approach to identify and manage those
tenants whose activities pose a greater risk to the environment and execute a written agreement to
ensure tenants clearly understand their responsibilities regarding environmental hazards.

Recommendations

We recommend that PBS implement a national EMS by 1) ensuring management in the PBS
Environment Program’s National Office continues to make progress in environment program
initiatives, 2) developing and implementing a regional implementation strategy to ensure that every
region is committed to the national EMS, 3) incorporating the recommendations of the EPA EMS
review into the Denver Federal Center EMS, national EMS, and each regional EMS, as appropriate,
4) requesting that an independent, third party conduct a comprehensive EMS audit of the national
EMS (instead of an environmental management review). We also recommend that PBS improve the
ERI by 1) expanding the scope of ERI completion to include leased facilities where the term of the


                                                   iii
GSA Office of Inspector General
Report Number A050040/P/4/R06003

lease exceeds an appropriate number of years, 2) ensuring that all PBS regional environment officials
know to include delegated buildings in the scope of ERI completion, 3) enhancing the ERI database
(both spreadsheet and web-based versions) controls. In addition, we recommend that PBS strengthen
environmental liability reporting by ensuring management in the PBS Environment Program’s
National Office supervises the regional updates of the environmental liability report and requiring
action plans from each region with listed environmental liabilities. Finally, we recommend PBS
apply a risk-based approach to identify those tenants whose activities pose a greater risk to the
environment and execute a written agreement that will ensure PBS tenants clearly understand their
responsibilities regarding environmental hazards.




                                                 iv
GSA Office of Inspector General
Report Number A050040/P/4/R06003


INTRODUCTION
                                             Background
The Public Buildings Service (PBS), a service organization of the U.S. General Services
Administration (GSA), is responsible for design, construction, repair and alteration, lease
acquisition, operation and maintenance, and real property disposal for nearly 10,000 owned and
leased facilities. Each of these activities has potential environmental and health impacts and one
goal of the PBS Environment Program, carried out by the Office of Applied Science, Research &
Expert Services Division for Environment, is to eliminate all damage to the environment
resulting from PBS operations. The PBS Environment Program helps GSA to be a responsible
steward of our nation’s resources, and ensures GSA carries out its social, environment, and other
responsibilities as a federal agency.

In February 2000, GSA’s Office of Inspector General (OIG) issued an audit report on the PBS
Environment Program.1 The audit’s objective was to determine if PBS was prudently managing
the environment program to identify and address environmental conditions in GSA-controlled
space and properties. As a result of OIG audit recommendations and requirements set forth in
Executive Order 13148, PBS planned its development of a national environmental management
system (EMS).

Executive Order 13148, “Greening the Government Through Leadership in Environmental
Management,” was issued in April 2000. A major goal of the order includes the development of
an EMS. The order requires “each agency to implement an EMS at all appropriate agency
facilities based on facility size, complexity, and the environmental aspects of facility operations
by December 31, 2005 based on the Code of Environmental Management Principles (CEMP) for
Federal Agencies and/or another appropriate EMS framework.”

The PBS EMS was initially planned based on the framework provided by CEMP, but PBS later
adopted the International Organization for Standardization’s (ISO) 14001 standard, which is
another EMS framework based on a series of voluntary international environmental management
standards. The two frameworks are similar in their intention and implementation of an effective
EMS. The core principles of an EMS under ISO 14001 include: 1) Environmental Policy, 2)
Planning (environmental aspects/impacts, requirements, objectives and targets, environmental
management programs), 3) Implementation and Operation (roles and responsibilities, training,
communication, EMS document control, emergency preparedness and response), 4) Checking
and Corrective Action (measurement and monitoring, EMS nonconformance and corrective
action, records/reports, EMS audits), and 5) Management Review.

                             Objectives, Scope and Methodology
The objective of this review was to determine whether PBS implemented effective measures
following the prior audit, Audit of PBS’ Environmental Management Program; specifically, the
effectiveness of PBS’ environmental management system (EMS), environmental risk index
1
    Audit of PBS’ Environmental Management Program, Report Number A995196/P/H/R00008, February 16, 2000.

                                                      1
GSA Office of Inspector General
Report Number A050040/P/4/R06003

(ERI), environmental liability reporting, and safeguards for tenant management of hazardous
materials in PBS-controlled space. Our work was conducted in the Southeast Sunbelt, Heartland,
Greater Southwest, and Pacific Rim regions.

To gain an understanding of PBS’ Environment Program, we reviewed prior audit reports issued
by the OIG and the Government Accountability Office; familiarized ourselves with PBS
Environment Program guidance, organizational structure and staffing; held discussions with the
Environment Program Director about EMS, ERI, environmental liability reporting, and tenant
responsibilities for the management of hazardous materials; familiarized ourselves with the
Federal environmental laws and regulations; and reviewed the federal accounting standards that
govern environmental liability reporting.

To accomplish the objectives of our audit, we held discussions with regional environment
officials; reviewed reports, guidance, and presentations on EMS in Federal and private
organizations; reviewed the Environmental Protection Agency’s Environmental Management
System Review of the Denver Federal Center in the Rocky Mountain Region; reviewed a
judgmental sample of ERIs completed during the first iteration (2004) for accuracy, completion,
and management usage; reviewed the Environmental Risk Index database (ERIN); reviewed
Occupancy Agreements (OA); discussed with regional Environment Program officials and
regional Portfolio Management representatives how tenant’s environmental responsibilities are
addressed to safeguard PBS; reviewed environmental liability packages for sites listed on the FY
2004 liability report and regional environmental liability records and assessed the validity and
completeness of the environmental liability report; met with a regional GSA General Counsel
representative to discuss the environmental liability reporting process; and compared PBS
guidance on accounting for environmental liabilities to other agencies and federal regulations.

The audit was conducted during the period December 2004 through July 2005 in accordance
with generally accepted government auditing standards.




                                               2
GSA Office of Inspector General
Report Number A050040/P/4/R06003


RESULTS OF AUDIT
The Public Buildings Service (PBS) is making progress towards the development of a national
environmental management system (EMS) as the framework to manage environmental issues
and concerns. However, more needs to be done. For the system to be fully effective, the
National Office needs to play a stronger role in ensuring that program initiatives are carried out,
regional efforts are coordinated, and the national EMS is implemented effectively in the regions.
In addition, to strengthen the national EMS, improvements should be made to the environmental
policies and procedures.

PBS recently developed the Environmental Risk Index (ERI) to facilitate the identification and
management of environmental risk. The scope of ERI completion needs to be expanded to
formally include leased and delegated facilities. In addition, the ERI tool needs several
application controls to increase the reliability of the scores it generates. Environmental liability
reporting, another component of the identification and management of environmental risk,
requires additional oversight to ensure the report is accurate and complete. Finally, PBS should
apply a risk-based approach to identify and manage those tenants whose activities pose a greater
risk to the environment and execute a written agreement to ensure tenants clearly understand
their responsibilities regarding environmental hazards.

Environmental Management System
According to the International Organization for Standardization’s (ISO) 14001 standard, an EMS
is “the part of the overall management system that includes organizational structure, planning
activities, responsibilities, practices, procedures, processes and resources for developing,
implementing, achieving, reviewing and maintaining the environmental policy.” The essential
purpose of the EMS is to help the agency identify its environmental aspects and impacts;
establish goals to address those impacts; operate to meet the established goals; monitor and track
performance; correct any identified problems; and review progress with the goal of continual
improvement.

Prior to EMS development, PBS had many different environment programs (e.g. asbestos
management, recycling, etc.), most of which addressed a specific legal or regulatory
requirement. One goal of the EMS is to put all of these various programs under one system,
which should allow PBS to ensure that these programs are all functioning properly and
consistently. According to PBS, the EMS should improve inventory and business by helping the
agency to:

   •   Make better-informed management decisions regarding building inventory;
   •   Prioritize actions based on environmental risks;
   •   Reduce environmental setbacks that reduce human and financial resources needed for
       other missions; and
   •   Build credibility for the agency as an environmental steward.




                                                 3
GSA Office of Inspector General
Report Number A050040/P/4/R06003

                       EMS Progress Has Been Slow Since 2000 Audit

PBS made plans to implement an EMS in 2000 in response to GSA’s Office of Inspector General
(OIG) audit report recommendation and Executive Order (EO) 13148. The OIG audit of the
environmental management program conducted in 2000 recommended the agency develop
reporting procedures, performance measures, or other methodologies to ensure the Environment
Program is effectively implemented in the regions.          The agency’s response to the
recommendation was that a national EMS was being developed that would incorporate each of
the suggested components and would be completed in 2000. This was not done; however, in
2003 the Denver Federal Center (DFC) EMS pilot project was initiated and was used as the basis
for the development of the national framework. The EMS was not completed until five years
after it was originally planned. We are concerned with the minimal progress achieved in EMS
implementation since our 2000 audit.

In addition to minimal progress, we found varied regional EMS plans and activities in the
absence of the national EMS framework. Two regional environment programs that we visited
have initiated EMS plans separate from the DFC pilot and national EMS. One region is in the
process of conducting a gap analysis, which is a comparison of the current program to an
accepted EMS framework to determine what variances exist. Another region has been
developing an EMS with the focus of a region-wide EMS that filters to its property management
centers. Both region’s environment officials stated that communication and coordination
between their offices and the DFC and National Office regarding the EMS projects had been
minimal. Environment officials of the two other regions we visited stated that they have not
initiated EMS plans and are waiting to receive guidance from National Office. While we
acknowledge that the EMS projects regional PBS environmental groups have initiated will
strengthen their regional environment program, we are concerned with the lack of coordination
or communication between them and National Office.

We recognize the progress the National Office Environment Program has made since its change
in leadership in 2004 and in order to continue meeting the program’s mission of ensuring
effectiveness and consistency in the execution of environment programs and services for all PBS
properties and customers, program management must ensure that initiatives are carried out. To
ensure that the EMS is effective and reaches the primary executors of the Environment Program,
the National Office should develop a regional implementation strategy that will guarantee that
every region is fully committed to the national EMS.

                              DFC EMS Pilot Needs Improvement

The U.S. Environmental Protection Agency (EPA) conducted an environmental management
review (EMR2) of the DFC EMS in February 2005. The resulting observations and
recommendations from the review fit into two general areas: policy issues and process issues.
The policy issues related to observed policies, plans, or statements that hadn’t been finalized or

2
  An EMR “is a review of an individual facility’s program and management systems to determine the extent to
which a facility has developed and implemented specific environmental protection programs and plans which, if
properly managed, should ensure compliance and progress towards environmental excellence.”


                                                      4
GSA Office of Inspector General
Report Number A050040/P/4/R06003

formalized at the time of the review. For instance, the report noted that neither the
environmental policy nor the environmental excellence statement had been finalized yet. Since
the environmental policy is the driver behind and basis of many aspects of the EMS, it is
important to ensure that it is adopted and reinforced throughout the agency as soon as possible.
The observations and recommendations relating to process issues related to incomplete activities,
scope limitations, lack of progress, and missed targets and objectives. For example, the report
noted that PBS at the DFC had not identified shortfalls in environmental compliance, especially
among contractors, as significant aspects/impacts. The EPA report included several observations
and made many recommendations for improvement, the details of which are included in
Appendix B.

Once an organization has established its EMS, assessing the implementation of the system is
critical. This initial assessment is best achieved through an EMS audit. According to EPA, an
EMS audit “would provide a thorough, systematic evaluation of all elements of a facility’s
implementation of an environmental management system.” It was also noted that an EMR is not
an EMS audit. An EMS audit is a system, or process audit, whereas an EMR looks at parts of
the system or looks at the system from a very broad perspective. PBS should adopt the
recommendations provided by the EPA EMR team to improve the quality and strength of the
EMS at the DFC. However, since the national EMS is the prevailing management system, PBS
should have a comprehensive EMS audit completed (instead of an EMR) of the national EMS to
assess the implementation of the system.

Identification and Management of Environmental Risk
One of the central components of an effective environment program is the identification and
management of environmental risks. While PBS has made great progress in developing an
environmental risk index (ERI) and reporting environmental liability for the financial statements,
more needs to be done. More specifically, the current ERI scope does not include portions of the
inventory that may constitute risk for PBS. Further, some enhancement to the ERI database
would make the results more accurate and reliable. Next, while most of the environmental
liability reporting seemed well managed, one region’s report was both inaccurate and
incomplete. Lastly, since PBS can share some responsibility for environmental issues caused by
tenant agencies, it could be more proactive by defining tenant responsibilities for environmental
risk in the occupancy agreements of tenants that pose a high risk.

                     Environmental Risk Index Needs Improvement

The ERI was developed to measure environmental, health, and safety risks in 13 areas
(hazardous waste, asbestos, indoor air quality, hazardous materials, subsurface contamination,
lead, PCB, storage tanks, Clean Air Act compliance, drinking water, wastewater, radon, and
stormwater) for all government-owned buildings. The ERI consists of a series of multiple-choice
questions covering each of the risk categories. Each multiple-choice response has a
corresponding numeric value that results in a risk measure for that category after the questions
have been answered. The ERI offers PBS the ability to proactively manage and mitigate
environmental risk in PBS-controlled space.


                                                5
GSA Office of Inspector General
Report Number A050040/P/4/R06003

ERI Universe Needs to Be Expanded

The current scope of the ERI initiative only includes government-owned assets. PBS focused on
owned assets initially because they have direct ownership and responsibility for these buildings.
However, in most instances PBS is also formally accountable for leased facilities. For annual
financial statement reporting, PBS includes owned and leased inventory with known or potential
environmental liabilities. Also, many executive orders pertaining to real property asset
management or environmental issues define Federal facilities as owned and leased properties.

In addition to the exclusion of leased buildings, we found an inconsistency in ERI completion for
delegated buildings. We found one region that did not complete an ERI for several buildings
because the facilities were delegated to another agency. While PBS has the authority to delegate
many of its functions to other agencies, PBS still has some responsibility for the facility. This
shared responsibility is evident in Executive Order 131233, which states “GSA is responsible for
working with agencies to meet the requirements of this order for those facilities for which GSA
has delegated operations and maintenance authority.”

The Environment Program hopes to include leased buildings in the ERI scope sometime in the
future, but has no specific plans. While we found one PBS region that has already begun to
include leased facilities in its ERI iteration, PBS needs to formally expand the scope of the ERI
initiative to include leased and delegated properties as well as government-owned properties in
all regions because 1) PBS is ultimately responsible for its building inventory and 2) the
consistent diligence of management practices nationwide increases the reliability, relevance, and
effectiveness of the program.

ERI Needs Additional Controls

The ERI is a tool developed to help
PBS manage and mitigate its
environmental risk.       We found
many instances where the tool had
identified issues and the agency had
responded by updating information,
correcting issues, or planning future
needs. However, we also found the
need for better controls. Our initial
ERI assessment was based on the
2004 ERI worksheet (an Excel
spreadsheet). We found that 62
percent of the 129 ERIs we
reviewed4 had errors or omissions
                                                     Figure 1. ERI extract with errors and omissions
(see Figure 1) that affected the                   (Respondent should have skipped B and answered #2).

3
  Executive Order 13123, “Greening the Government through Efficient Energy Management,” Section 308, signed
by President Clinton, June 3, 1999.
4
  The agency didn’t have 33 of the requested ERI sample for various reasons, including delegated buildings,
buildings in disposal, and facility types considered inapplicable (e.g. parking garages or a storage facility).

                                                        6
GSA Office of Inspector General
Report Number A050040/P/4/R06003

overall ERI score. In addition to the errors and omissions, we found several instances where
questions were answered incorrectly as a result of misinterpretation of the question or selection
of the wrong response; conflicts between ERI responses and responses to our follow-up survey;
basic data entry errors; and intentional omissions for questions considered not applicable due to a
lack of risk. The 2005 ERI worksheet has resolved the issue of intentional omissions for
questions considered not applicable by adding a question regarding the risk of this category at
the facility, but the other deficiencies in controls still exist in the 2005 version of the worksheet.

PBS also has a web-based version of the ERI database, ERIN. This version of the ERI has
corrected many of the issues
identified in the 2004 and 2005
ERI worksheets. ERIN offers
more concise questions and
limited response choices, which
allows the user to better respond
to     questions    instead     of
answering them incorrectly or
leaving them blank (both affect
the overall score). However,
ERIN       still   permits     the
respondent to skip questions (see
Figure 2), which creates the
same completion control issue            Figure 2. ERIN extract with omission (Question 5).
observed on the spreadsheet
version.

ERIN eliminates many of the deficiencies found in the Excel version, however many regions
continue to use the Excel version because it is easier to use. Since the regions are using both
versions of the ERI (spreadsheet and web-based), PBS needs to add better controls to both
versions to increase the reliability and consistency of ERI scores.

The ERI is one of PBS’ newest performance metrics. The agency has established thresholds for
each risk category to separate acceptable and unacceptable risk. In order for the ERI to be an
effective performance measure, the scores derived from it must be reliable for management
decision-making. The following controls would increase the reliability of the data:

   •   Data capture controls – to ensure that an ERI is completed for all facilities in PBS
       inventory, which increases the completeness of the database;
   •   Data validation controls – to increase the accuracy of the information captured in the
       ERI, which increases the validity of the database and becomes very important when non-
       PBS personnel complete the ERI; and
   •   Error controls – to ensure that the ERI is clear of obvious mistakes (e.g. questions
       answered that should not be and questions omitted that should be answered).




                                                  7
GSA Office of Inspector General
Report Number A050040/P/4/R06003

        Environmental Liability Reporting Needs National Office Supervision

The Federal government spends approximately $9 billion per year on environmental cleanups,
and is projected to spend an additional $234 to $389 billion over the next 75 years. GSA
environmental liability reporting requires the agency to identify and report its portion of these
costs. This includes all sites, both government-owned and leased, where there is a possibility of
an actual and/or threatened release of chemicals and/or hazardous materials to the environment
that will require future GSA response activities (i.e. perform or satisfy claims for the
performance of cleanup of hazardous substances, pollutants and contaminants released into the
environment). In 2004, GSA recognized $103 million in cleanup costs, an increase of $23
million from the prior year. The report includes “reasonably possible” and “probable” liabilities,
which is determined by regional GSA legal counsel based on information provided by the
regional environment office.

We did not identify any errors or omissions in the environmental liability reporting in most of the
regions we visited. However, the environmental liability report for one region was incomplete
and inaccurate. The regional report excluded liabilities that met the requisite conditions for
environmental liabilities (i.e. an actual and/or threatened release of chemicals or hazardous
materials to the environment that requires a future GSA response). For example, one building
that has an emergency generator with built-in 200-gallon diesel above ground storage tank and
an observed leak around the piping and tank is listed on regional documents as an environmental
liability, but is not listed on the GSA environmental liability report. Regional representatives
could not explain why these liabilities were excluded from the report. In addition, the regional
report included several sites where environmental remediation had been completed but the
appropriate documentation to support the region’s actions could not be found. In spite of the
future action required by GSA (i.e. obtaining the appropriate documentation), these sites are not
significant liabilities to GSA and should not be listed on the report as “probable” liabilities. In
addition, all of the inaccuracies found in the regional report had been included in the GSA
environmental liability report since 2001 with the same initial cost estimates. Although we
found only one region with environmental liability reporting issues, the oversight calls attention
to the lack of National Office management over the reporting process.

The environmental liability report is tied directly to GSA’s financial statements and inaccuracies
in the report reduce the creditability of the agency’s internal control structure. PBS’
Environment Program management in National Office should review the environmental liability
report periodically to uncover environmental issues that are not being managed by the regional
program and require action plans from the regions to ensure liabilities are being addressed.

                        PBS Should Address Tenant Responsibility

PBS owns, operates and manages over 330 million square feet of space across the country.
PBS’s building inventory includes border stations, courthouses, office buildings, laboratories and
data processing centers. The majority of PBS’s inventory is office space, but there are certain
tenant agency activities that pose a greater risk to the environment (e.g. laboratories, firing
ranges, vehicle maintenance, and light industrial activities). Effective treatment of PBS’s tenant


                                                 8
GSA Office of Inspector General
Report Number A050040/P/4/R06003

agency activities would offer PBS the ability to manage and mitigate its environmental risk in
PBS-controlled space.

The 2000 OIG audit report noted that PBS tenants should be required to inform PBS of potential
hazards and to clearly understand their responsibilities for these activities since PBS can be held
liable for contamination they cause. Some tenant agency activities pose a greater risk to the
environment and may cause property contamination or require special maintenance and
management. However, PBS has no written agreement that requires tenant agencies to provide
information on hazardous materials and clearly defines tenant responsibilities for the
management of high-risk environmental activities.

PBS needs to apply a risk-based approach to the identification and treatment of tenant
environmental activities. PBS should identify those tenants whose activities pose a greater risk
to the environment and then execute a written agreement that ensures PBS tenants clearly
understand their responsibilities regarding environmental hazards.

Conclusion
PBS has completed a national environmental management system (EMS) as the framework to
manage PBS environmental issues and concerns. PBS also has a facility-level EMS pilot at the
Denver Federal Center (DFC). In addition to these efforts, PBS must ensure that the regional
environment programs are committed to and involved with every aspect of the EMS, because the
regional programs are the primary administrators of the environment program. A regional
implementation strategy would allow the National Office to ensure that the national EMS is
effectively implemented in every region. To ensure that the Environment Program is
administered effectively and consistently, the National Office must ensure that initiatives are
carried out, specifically in the implementation of a national EMS. In addition, PBS can improve
the quality and strength of the EMS at all levels by addressing observations and adopting
recommendations identified in the Environmental Protection Agency’s DFC EMR and ensure
that a comprehensive EMS audit is completed (instead of an EMR) of the national EMS to assess
the implementation of the system.

The PBS Environmental Risk Index (ERI) tool is a good tool to assist the agency with the
identification and management of environmental risk. However, the tool’s scope of completion
needs to be formally expanded to include leased and delegated facilities because 1) PBS is
ultimately responsible for its building inventory and 2) the consistent diligence of management
practices nationwide increases the reliability, relevance, and effectiveness of the program. In
addition to scope expansion, the ERI database needs additional controls to increase the reliability
of the scores that it generates.

PBS environmental liability reporting overall seems to be well managed. However, based on
results found in one region, the National Office needs to review the environmental liability report
periodically to uncover issues that are not being managed by the regional offices and require
action plans from the regions to ensure liabilities are being addressed. Finally, PBS should
formally address the issue of tenant responsibilities as they relate to environmental hazards. This
can be accomplished through a risk-based approach that allows PBS to 1) identify those tenants

                                                 9
GSA Office of Inspector General
Report Number A050040/P/4/R06003

whose activities pose a greater risk to the environment and 2) execute a written agreement that
ensures PBS tenants understand their responsibilities regarding environmental hazards.

Recommendations
We recommend that the Commissioner of the Public Buildings Service address the following
issues:

(1)   Implement a National Environmental Management System (EMS) by:

      a. Ensuring management in the PBS Environment Program’s National Office continues to
         make progress in environment program initiatives by incorporating recommendations
         that arise from audits and reviews into the program in a timely manner and addressing
         communication and coordination needs for consistent development and
         implementation of the national EMS.
      b. Developing and implementing a regional implementation strategy to ensure that every
         region is committed to the national EMS.
      c. Incorporating the recommendations of the EPA EMS review into the Denver Federal
         Center EMS, national EMS, and each regional EMS, as appropriate.
      d. Requesting that an independent, third party conduct a comprehensive EMS audit of the
         national EMS (instead of an environmental management review).

(2)   Improve the Environmental Risk Index (ERI) by:

      a. Expanding the scope of ERI completion to include leased facilities with lease terms
         that exceed an appropriate number of years.
      b. Ensuring that all PBS regional environment officials know to include delegated
         buildings in the scope of ERI completion.
      c. Enhancing the ERI database (both spreadsheet and web-based versions) with the
         following controls:
           i. Data capture controls to ensure that an ERI is completed for all facilities in PBS
               inventory, which increases the completeness of the database;
          ii. Data validation controls to increase the accuracy of the information captured in
               the ERI, which increases the validity of the database and becomes very important
               when non-PBS personnel complete the ERI; and
         iii. Error controls to ensure that the ERI is clear of obvious mistakes (e.g. avoid
               questions being answered that should not be and ensure questions that should be
               answered are not omitted).

(3)   Strengthen Environmental Liability Reporting by:

      a. Ensuring management in the PBS Environment Program’s National Office supervises
         the regional updates of the environmental liability report.
      b. Requiring action plans from each region with listed environmental liabilities.



                                               10
GSA Office of Inspector General
Report Number A050040/P/4/R06003

(4)   Apply a risk-based approach to identify those tenants whose activities pose a greater risk
      to the environment and execute a written agreement that will ensure PBS tenants clearly
      understand their responsibilities regarding environmental hazards.

Management Comments
The Commissioner of the Public Buildings Service has provided comments to this report, which
have been included in its entirety as Appendix A. The Commissioner agreed with the essence of
the report’s conclusions and recommendations, while also noting current and planned efforts that
should address our audit findings and recommendations.

Internal Controls
We evaluated the internal controls in effect over the ERI database and environmental liability
reporting that were appropriate to meet the objectives of this audit. As previously discussed,
discrepancies were noted and recommendations provided.              We have concluded that
implementing the recommendations in this report will improve the overall internal control
structure in these areas.




                                               11
GSA Office of Inspector General
Report Number A050040/P/4/R06003




                                   APPENDICES


Appendix A    Management Response to Draft Report                    Page A-1
Appendix B    Results of the Environmental Protection Agency (EPA)   Page B-1
              Environmental Management Review (EMR)
Appendix C    Report Distribution                                    Page C-1




                                            12
GSA Office of Inspector General
Report Number A050040/P/4/R06003

                                        Appendix A

                             Management Response to Draft Report




                                             A-1
GSA Office of Inspector General
Report Number A050040/P/4/R06003




                                   A-2
   GSA Office of Inspector General
   Report Number A050040/P/4/R06003

                                                     Appendix B

                Results of the Environmental Protection Agency (EPA) Environmental
                                     Management Review (EMR)

   Source:   U.S. EPA, “Environmental Management System Review Final Report: General Services
             Administration Public Buildings Service Denver Federal Center,” May 26, 2005.

   Scope:    The U.S. Environmental Protection Agency (EPA) Region 8 conducted an Environmental
             Management Review (EMR) of the General Services Administration (GSA) Denver Federal Center
             (DFC) in Denver, Colorado in February 2005.

                                           GSA DFC 4.2 Policy Strengths
        In keeping with its "national" approach to developing an EMS, GSA PBS HQ has issued an environmental
        excellence statement that is intended to apply to all GSA operations. The statement includes commitments
 EP-1
        to compliance, continuous improvement, and P2. GSA PBS HQ also has issued an environmental policy
        that incorporates, by reference, the environmental excellence statement.
        Senior management has demonstrated a commitment to P2. For example, GSA DFC recently recycled
        approximately 900 tons of concrete and other "hard building materials" as part of a deconstruction project
 EP-2   in Building 47. The facility has applied for a Closing the Circle Award from EPA's Office of the Federal
        Environmental Executive for this project. In September of 2004, the DFC also completed a purchase of 10
        electric vehicles for use on site and in the immediate vicinity of the DFC.

                  GSA DFC 4.2 Policy Observations, Recommendations, and GSA Response
ISO Element       Observations/Examples           Recommendation         Response to Recommendation
4.2             Neither the GSA PBS HQ              GSA PBS HQ must move                 In process. The Environmental
Environmental   environmental policy nor the        quickly to finalize its ISO          Policy and Commitment
Policy          environmental excellence            14001-based agency-wide              Statement have been drafted and
(EP-3)          statement had been finalized at     environmental policy. The            are awaiting review and approval
                the time of the EMR.                policy must include                  by the PBS Deputy
                Discussions with                    commitments to compliance            Commissioner.
                representatives from GSA PBS        with all relevant environmental
                HQ indicate that these              requirements, P2, and                Once the final Environmental
                documents need to be revised to     continuous improvement. The          Policy and Commitment
                ensure internal consistency and     policy also must provide a           Statement are available, the DFC
                to reflect the recent decision by   framework for setting and            will adopt these documents. They
                GSA PBS HQ to switch from           reviewing objectives and             will be available as part of the
                an EMS based on the CEMP to         targets.                             EMS materials to all Region 8
                one based on ISO 14001.                                                  personnel.
                                                    Although the environmental
                There is no relevant facility       policy is being prepared at a
                specific environmental policy       national level, the DFC must
                for the GSA DFC.                    ensure that the policy is
                                                    officially adopted at the facility
                                                    level; reinforced through
                                                    training; and widely
                                                    disseminated to DFC staff and
                                                    contractors.


                                                           B-1
   GSA Office of Inspector General
   Report Number A050040/P/4/R06003

                  GSA DFC 4.2 Policy Observations, Recommendations, and GSA Response
ISO Element       Observations/Examples           Recommendation         Response to Recommendation
4.2           The environmental policy must      PBS could post a copy on their   In keeping with existing standard
Environmental be made available to the public.   web site or initiate a more      procedure, once approved by the
Policy                                           proactive effort to share and    Agency’s Commissioners, the
(EP-4)                                           discuss the policy with          policy will be posted on the PBS
                                                 interested parties.              Insite and GSA.gov websites.



                                          GSA DFC 4.3 Planning Strengths
               The DFC has been designated as a pilot facility to identify specific environmental aspects and
               impacts of its activities, products, and services. With input from DFC staff, GSA PBS HQ has
    PL-1
               developed a list of activities, products, and services common to PBS facilities, as well as a list of
               potential environmental aspects.
               GSA PBS HQ has established a procedure for evaluating environmental aspects, including criteria
    PL-2
               on determining the significance of these aspects.
               GSA PBS HQ maintains an online resource (F Street News) that includes legal and regulatory
    PL-3
               interpretations of requirements applicable to GSA facilities.
               Environmental Program Group (EPG) staff periodically consults various sources (GSA and state
    PL-4       hotlines, GSA website, inter-agency contacts) that can potentially provide updates on legal and other
               requirements.
               The DFC has set written objectives and targets based on the aspects it has determined to be
    PL-5       significant (see PL-7). Some facility-specific environmental requirements (e.g., storm water permit)
               have been incorporated into these objectives and targets.
               The National Environmental Policy Act (NEPA) process addresses the environmental aspects
    PL-6
               associated with construction of new buildings at the DFC.
               PBS has taken positive steps to identify and clarify its environmental aspects, such as doing a camera
    PL-7       survey to identify which floor drains go to storm water pipes and which are connected to the sewer,
               and metering water and energy in DFC buildings.
               There is a process in place to require tenants to remediate environmental problems before turning the
    PL-8
               space/building back to PBS.

               GSA DFC 4.3 Planning Observations, Recommendations, and GSA Response
 ISO Element Observations/Examples                 Recommendation               Response to Recommendation
4.3.1         PBS at the DFC has not       Ensure that both O&M              The DFC will conduct an
Environmental identified environmental     contractors and construction      independent Environmental
Aspects       compliance shortfalls,       contractor activities with the    Compliance Audit as part of the next
(PL-9)        especially among             potential to impact the           cycle through the EMS process. Any
              contractors, that should be environment (e.g. CFC              issues found as a result of this audit
              considered as significant    management, hazardous waste       will be addressed with additional
              aspects/impacts.             accumulation, management of       aspects/impacts and
                                           spent fluorescent tubes and other objectives/targets.
                                           universal waste) are included
                                           within the scope of the EMS.
4.3.2 Legal   There is no procedure in     Expand the existing informal      GSA PBS HQ is developing a listing
and Other     place to identify applicable procedures already used by DFC of all environmental regulations,

                                                        B-2
   GSA Office of Inspector General
   Report Number A050040/P/4/R06003

               GSA DFC 4.3 Planning Observations, Recommendations, and GSA Response
 ISO Element Observations/Examples                 Recommendation               Response to Recommendation
Requirements legal and other              staff into a standard procedure to Executive Orders, et al applicable to
(PL-10)      requirements. The            identify current requirements and the Agency’s business operations.
             procedure should explain obtain regular updates on              HQ’s Regulatory Study and
             the purpose and steps that applicable environmental             Advocacy Division provides the
             PBS personnel take,          requirements, including state and Environment Programs with
             identify sources of          local regulations.                 information regarding legislative
             information, explain how                                        changes and updates. This
             frequently this is done, and                                    information is passed on to Regions
             designate the position(s)                                       via the PBS Insite website, yearly
             responsible.                                                    conferences, monthly environmental
                                                                             news updates from the agency’s
                                                                             legal staff (available at
                                                                             http://ogc.elaw.gsa.gov/monthly/GS
                                                                             ANEWSMar05.htm) and, when
                                                                             necessary, via e-mail.

                                                                                    The DFC will continue to frequently
                                                                                    monitor state and local regulations
                                                                                    and their potential business impacts.
4.3.2 Legal     PBS has not identified all     Consider obtaining a third-party     The DFC will conduct an
and Other       requirements that apply to     baseline environmental               independent Environmental
Requirements    its operations, products,      compliance audit to identify         Compliance Audit and address the
(PL-11)         and services, especially       applicable requirements. Audit       concerns brought forth (see response
                those relating to contractor   services are available for a fee     to PL-9).
                activities.                    through FedCenter
                                               [www.FedCenter.gov] or from
                                               local environmental consulting
                                               firms that specialize in
                                               compliance auditing.
4.3 Planning    Although the DFC has           Prepare a plan that ties together    The DFC will compile the various
(PL-12)         undertaken numerous P2         the various P2 efforts. The          P2 documents and processes and
                initiatives, there is no       objectives and targets in the P2     create a formal P2 plan, which will
                formal P2 plan.                plan will be a subset of those set   be available through the EMS
                                               forth within the EMS.                information.
4.3.4           Management of Change:          In addition to those generated by    Region 8 has a functional Technical
Environmental   Beyond NEPA and tenants        large-scale construction efforts,    Services Team. At the beginning of
Management      vacating buildings, there is   operational changes with the         any project, an announcement email
Program(s)      no procedure in place to       potential to impact the              is distributed to personnel in charge
(PL-13)         manage change that could       environment can occur. Because       of sustainable design, historic
                have environmental             the categorical exclusions under     preservation, IH, safety, fire codes,
                impacts. Changes               NEPA can be interpreted as           environmental, etc.
                associated with new or         exempting most of the actions at
                modified PBS or contractor     the DFC from consideration           The DFC Environmental Programs
                activities are not currently   under NEPA, the PBS should           Group attends meetings on regional
                covered by a change            develop a "change management"        capitol projects that could impact the
                management process.            process to ensure that these         environment.
                                               potential impacts are considered


                                                          B-3
 GSA Office of Inspector General
 Report Number A050040/P/4/R06003

               GSA DFC 4.3 Planning Observations, Recommendations, and GSA Response
ISO Element    Observations/Examples          Recommendation                Response to Recommendation
                                     under the EMS. Management of All construction, repair, or disposal
                                     change should cover changes to projects are required to obtain an
                                     activities, products and services at Excavation Permit before the project
                                     the DFC that could have impacts begins. This permit extensively
                                     on the environment.                  addresses environmental issues that
                                                                          may arise.

                                                                             The Region 8 internal website also
                                                                             has checklists available to all project
                                                                             managers (http://insite-
                                                                             mrpbs.gsa.gov/projectsupport/).
                                                                             These checklists provide contact
                                                                             information for service centers who
                                                                             are either required or available
                                                                             consultants for projects.
                                                                             Environmental contacts are an
                                                                             essential part of these checklists.


                           GSA DFC 4.4 Implementation and Operations Strengths
              Senior management at the DFC has provided personnel resources to begin implementation of the
   IM-1       EMS. A Management Representative responsible for overseeing implementation of the EMS has
              been informally designated.
              The DFC EPG regularly provides dig permit training to contractors and infrastructure and project
   IM-2
              management teams.
              In 2003, GSA PBS HQ provided EMS awareness training to DFC staff. The EPG periodically
   IM-3       provides training on various topics (e.g., OSHA, environmental awareness, storm water) to DFC
              personnel and contractors.
              Weekly team meetings and daily team huddles provide a venue for communicating environmental
              issues as they arise. Excellent training and communication tools (e.g., GSA Update, Environmental
   IM-4       Touchpoints, INSIGHT) are used to convey environmental messages to employees. Communication
              protocols with external stakeholders (e.g., public meetings, DFC News) are well established due to
              the history of remedial action at the DFC.
              GSA DFC has installed and managed Xeriscape gardens to control animal migration (geese) and to
   IM-5       educate the public and employees at the DFC of the benefits of Xeriscape. The facility also conducts
              semiannual Xeriscape seminars for staff.
              To reduce risks associated from contacting contaminated soil or groundwater, staff and contractors
   IM-6
              are required to obtain excavation permits prior to digging to any depth greater than 18 inches.
              Property managers have installed meters that enable them to monitor water use by tenants. Managers
   IM-7       can generate detailed water usage reports and have frequently met with tenants to develop water
              conservation strategies. Similar capabilities exist for energy use.
              DFC has written an environmental management program on developing environmental requirements
   IM-8
              for contractors (see however PL-8 and IM-13).
              The facility has an up-to-date Emergency Response and Contingency plan and a Spill Prevention,
   IM-9
              Control, and Countermeasures plan. DFC has a Continuity of Operations plan and has tested it. The


                                                      B-4
   GSA Office of Inspector General
   Report Number A050040/P/4/R06003

                             GSA DFC 4.4 Implementation and Operations Strengths
                facility conducts regular emergency preparedness and response exercises.
                DFC has established a hotline for major or after hour emergencies. Staff is instructed to contact the
    IM-10
                Infrastructure or Environmental Program Groups for emergencies during regular operating hours.

      GSA DFC 4.4 Implementation and Operation Observations, Recommendations, and GSA Response
 ISO Element Observations/Examples                  Recommendation               Response to Recommendation
4.4.1 Structure Environmental roles and Include specific environmental       GSA is in the early stages of
and             responsibilities have not roles and responsibilities in the  implementing a new performance
Responsibility been clearly defined for     position descriptions and annual review system. Performance
(IM-11)         all staff at DFC            performance plans of all staff   measurements that include
                responsible for managing whose activities potentially        environmental indicators may be
                activities associated with impact the environment.           included in the future for a larger
                significant environmental                                    number of personnel. They currently
                aspects/impacts.                                             cover only the environmental group.
4.4.1 Structure The lack of progress        Progress towards achieving       The level of HQ support to the DFC
and             towards achieving           objectives and targets must be   EMS will be determined following a
Responsibility established environmental included as part of the             joint review of these EMR results.
(IM-12)         objectives and targets      management review (see MR-4).
                indicates that there has                                     EMS procedures and guidance review
                been a significant loss of GSA PBS HQ must complete its is still in process. Initial reviews
                momentum in the             ongoing evaluation of official   indicate a need for cosmetic changes,
                implementation of the       EMS policies, procedures, and    e.g. removing “CEMP” from many
                EMS at the DFC.             guidance and issue these         documents. A 2003 study funded by
                                            documents/resources in final     GSA PBS HQ found that the primary
                Interviews with DFC staff form.                              differences between CEMP and ISO
                indicated that there was                                     are a matter of degree and extent,
                some confusion as to                                         rather than of underlying intent. Thus,
                whether GSA PBS HQ                                           the underlying components of an
                was providing the same                                       EMS designed to satisfy the CEMP,
                level of support (e.g.,                                      should meet the requirements of ISO
                guidance, contractor                                         14001.
                resources) pending
                resolution of issues                                         The intent is to utilize most, if not all
                associated with                                              of the forms, etc. developed for the
                reorganization at                                            DFC as templates for the national
                headquarters and the                                         level EMS.
                CEMP/ISO 14001
                transition.                                                  The DFC currently has a system for
                                                                             management review of the EMS. Any
                Departures of key EMS                                        new ISO 14001 standards will be
                staff at the DFC have                                        included as EMS updates occur.
                contributed to the loss of
                program momentum.
4.4.1 Structure Senior management has       Senior management at the DFC     The Regional Environmental
and             not officially designated a must officially designate a MR   Manager position has been filled and
Responsibility Management                   responsible for overseeing       designated the responsible party to
(IM-13)         Representative to replace implementation of the EMS.         oversee the implementation of the


                                                         B-5
   GSA Office of Inspector General
   Report Number A050040/P/4/R06003

      GSA DFC 4.4 Implementation and Operation Observations, Recommendations, and GSA Response
 ISO Element Observations/Examples                    Recommendation                 Response to Recommendation
                the previous MR who left.                                        EMS.
4.4.2 Training, The facility has not clearly Prepare an environmental training The DFC is in the process of
Awareness,      defined training needs.      needs assessment or matrix, based identifying training needs. This step
and             Environmental training       on functional areas, that specifies is outlined on the Environmental
Competence needs have not been               which staff should receive which Management Program Planning Form
(IM-14)         identified for new           training and with what frequency. for each Action Team. Included in
                building managers. Many Some staff will only require some the assessment are individual position
                staff has received           form of basic environmental         descriptions, appropriate frequency,
                environmental training but awareness training. The               and level of training required.
                there is no training needs assessment must be revised as
                matrix, or other needs       conditions change (see MR.4),       The training programs will be
                analysis that is based on and should specifically include        implemented for appropriate staff as
                significant impacts and      RCRA training for staff that        part of the EMS process.
                regulatory requirements. oversee M &O contractors with
                                             hazardous or universal waste
                Personnel who oversee        management responsibilities.
                contractor operations
                involving hazardous or
                universal waste have not
                had appropriate training to
                understand applicable
                requirements.
4.4.2 Training, Only one DFC staff           All staff that handle hazardous     See response to IM-14.
Awareness,      person received annual       waste must receive annual RCRA
and             RCRA training during         training. Records documenting
Competence 2004.                             this training must be maintained.
(IM-15)
4.4.5           EMS documentation            GSA PBS HQ must issue final         Much of what HQ develops will be
Document        prepared by GSA PBS HQ versions of its EMS policies,             based on materials developed for the
Control         has not been finalized.      procedures, and guidance (see       DFC. A review of existing procedures
(IM-16)                                      IM-12).                             is ongoing and finalization is
                The DFC has not                                                  expected no later than July 2005. This
                incorporated information Incorporate, where appropriate,         does not however preclude the DFC
                on facility-specific aspects facility-specific information into from continuing EMS development.
                and impacts into this        the DFC versions of EMS             As indicated earlier, areas where
                documentation. For           documents.                          CEMP is referenced can be easily
                example, procedures and                                          replaced by “ISO 14001” without ill
                checklists for conducting                                        effect. This is particularly true of the
                environmental                                                    Operational Controls Procedures
                management reviews have                                          developed.
                not been integrated into
                the Rocky Mountain                                               As the DFC cycles through the EMS
                Region/DFC document                                              process, additional facility-specific
                control system. In                                               information and requirements will be
                addition, existing DFC                                           included
                EMS documents remain in
                draft form (e.g., energy

                                                          B-6
   GSA Office of Inspector General
   Report Number A050040/P/4/R06003

      GSA DFC 4.4 Implementation and Operation Observations, Recommendations, and GSA Response
 ISO Element Observations/Examples           Recommendation                Response to Recommendation
             conservation procedure
             dated 3/3/04).
4.4.5        EMS documents stored on EMS document control               Currently, the documents are in a
Document     the shared drive can be procedures must address version modification phase. As processes and
Control      modified by anyone with control and revision dates.        documents reach a final phase, they
(IM-17)      access to this drive    Official EMS documents stored will be in a read-only format.
                                     on the shared drive should be in a
                                     read-only format (e.g., PDF).



                            GSA DFC 4.5 Checking and Corrective Action Strengths
               EPG staff use standard checklists to verify, on a weekly basis, RCRA compliance at the 90-day
   CCA-1
               hazardous waste storage areas (see CCA-6).
   CCA-2       Property management teams conduct root cause analyses on repetitive O&M issues.
               The water management team has several procedures in place to ensure corrective and preventive
   CCA-3
               actions are assigned and completed.
               Environmental Program checks all Indoor Air Quality work orders to verify successful completion of
   CCA-4
               project.
               Selected EMS records are stored and maintained in accordance with the ISO 14001 standard (e.g.,
   CCA-5       energy and water use, administrative records related to the consent order, asbestos abatement
               activities).
               Monitoring of water, electricity, and natural gas usage is largely in place and can provide the
   CCA-6
               baseline data necessary to monitor performance

      GSA DFC 4.5 Checking and Corrective Action Observations, Recommendations, and GSA Response
 ISO Element Observations/Examples              Recommendation               Response to Recommendation
4.5.1        The DFC has not            Adopt written procedures, similar Written compliance procedures will
Monitoring   developed a documented to those used to assess               be created as part of the
and          procedure to assess        compliance at RCRA hazardous environmental audit compliance.
Measurement compliance with all         waste storage areas, to support
(CCA-7)      applicable requirements. environmental compliance
                                        reviews under all applicable
                                        requirements (see PL-9).
4.5.1        The EMS does not yet       Conduct and maintain an           Individual teams currently have this
Monitoring   identify and track all     inventory of all affected         type of inventory. A full list will be
and          equipment at the DFC that equipment and ensure that          created from these inventories in
Measurement needs to be calibrated      calibration records are           order to create an overall schedule
(CCA-8)      (e.g., indoor air quality  maintained.                       and record system regarding
             monitoring devices, noise                                    equipment maintenance and
             monitors, backflow                                           calibration.
             prevention devices).
4.5.1        Many of the                Ensure that senior management is Monthly update meetings are
Monitoring   environmental objectives aware of the deadlines established envisioned as a way of maintaining
and          and targets at the DFC had by the various working groups     the schedule required for the

                                                       B-7
   GSA Office of Inspector General
   Report Number A050040/P/4/R06003

      GSA DFC 4.5 Checking and Corrective Action Observations, Recommendations, and GSA Response
 ISO Element Observations/Examples               Recommendation               Response to Recommendation
Measurement not been achieved at the (e.g., contracting, energy           Objectives and Targets. This will
(CCA-9)       time of the EMR, and      conservation) and that a process allow a more proactive team response
              deadlines had passed.     is in place to review and address for any issue that reaches a barrier.
                                        lagging objectives and targets.   Senior management is regularly
              In some cases, work has [See also IM-12].                   present at these meetings.
              not begun to achieve
              objectives and targets,   Evaluate specific objectives and
              despite the fact that the targets to identify barriers to
              scheduled completion      implementation. Senior
              dates had passed or would management should re-evaluate
              soon pass.                these objectives and targets as
                                        part of the management review
                                        (see MR-4).
4.5.4         The EMS has not reached The EMS could be audited as it is The EMR conducted by EPA in
Environmental a point in its            developed. For example, an audit February 2005 has served as an in-
Management implementation that a        could be done of the Policy and progress audit. The timing of this
System Audit comprehensive EMS audit Planning phases when they are        review has had the effect of
(CCA-10)      has been conducted.       complete, and another audit done reenergizing the EMS
                                        of the Implementation and         implementation.
                                        Checking and Corrective Action
                                        phases. This real time auditing   In the future, ISO14001-based
                                        can help maintain momentum in protocols developed by third parties,
                                        EMS implementation (see MR-1). such as EPA will be used.

                                          Collaborate with GSA PBS HQ in
                                          revising the existing audit
                                          protocol to reflect ISO 14001
                                          principles.



                               GSA DFC 4.6 Management Review Strengths
               GSA PBS HQ has developed a protocol based upon CEMP for conducting environmental
    MR-1
               management system audits.
               The Environmental Risk Indicator data collection system can be used as an additional tool to support
    MR-2
               a senior management level review of the EMS.

    GSA DFC 4.5 Checking and Corrective Action Observations, Recommendations, and GSA Response
    ISO     Observations/Examples                Recommendation              Response to Recommendation
  Element
4.6        Top management at the      Senior management must take a more The Assistant Regional
Management DFC does not appear to     active role in reviewing and approving Administrator is both aware of
Review     have been prominently      of objectives and targets, as well as  and supportive of the EMS
(MR-3)     involved in the            monitoring progress towards their      project.
           development of the EMS achievement.
           (policy, aspects/impacts,                                         The DFC Director has been
           objectives and targets) or                                        personally involved and highly

                                                       B-8
   GSA Office of Inspector General
   Report Number A050040/P/4/R06003

    GSA DFC 4.5 Checking and Corrective Action Observations, Recommendations, and GSA Response
    ISO    Observations/Examples             Recommendation            Response to Recommendation
  Element
          in addressing barriers to its                               supportive of this project from
          implementation (e.g.,                                       its inception. He has attended
          missed milestones).                                         and participated in most
                                                                      trainings and meetings in order
                                                                      to provide support and direction.

                                                                             See response to CCA-9.
4.6        The EMS has not reached a Establish a system for management       The DFC currently has s system
Management point in its implementation review of the EMS to determine if the for management review of the
Review     that it has conducted       DFC is meeting its environmental      EMS. The new ISO 14001
(MR-4)     management reviews.         goals. The reviews should occur on a standards will be considered for
                                       regular schedule to be determined by future updates of this system.
                                       the DFC in consultation with GSA
                                       PBS HQ. The new ISO14001-2004
                                       [January, 2005] standard has more
                                       specific guidance on topics to be
                                       considered during the management
                                       review.




                                                    B-9
GSA Office of Inspector General
Report Number A050040/P/4/R06003

                                          Appendix C

                                      Report Distribution


                                                                Copies
Commissioner, Public Buildings Service (P)                        3
Regional Administrator, Southeast Sunbelt Region (4A)             1
Regional Administrator, Heartland Region (6A)                     1
Regional Administrator, Greater Southwest Region (7A)             1
Regional Administrator, Pacific Rim Region (9A)                   1
Office of the Chief Financial Officer (B)                         2
Assistant Inspector General for Auditing (JA, JAO, and JAS)       3
Assistant Inspector General for Investigations (JI)               1
Regional Inspector General for Auditing, Real Property (JA-R)     1
Regional Inspector General for Auditing, Finance (JA-F)           1
Branch Chief, Audit Follow-up and Evaluation Branch (BECA)        1




                                               C-1
